              OFFICE OF
              INSPECTOR
              GENERAL
              UNITED STATES POSTAL SERVICE




   National Assessment of City Delivery
   Efficiency 2011 – Office Performance

         Management Advisory Report




                                             July 19, 2011

Report Number DR-MA-11-002
                                                                          July 19, 2011

                                              National Assessment of City Delivery
                                              Efficiency 2011 – Office Performance


                                                       Report Number DR-MA-11-002




IMPACT ON:                                  Operations and the vice president,
City Delivery Office Efficiency             Network Operations Management work
                                            jointly to reduce over 2 million
WHY THE OIG DID THE AUDIT:                  workhours during FY 2012 with an
To assess the overall efficiency of city    associated impact of $88,192,138. In
delivery office operations and identify     addition, we recommended promoting
opportunities to reduce operating costs.    office efficiency by coordinating with
                                            plants to ensure mail arrives timely and
WHAT THE OIG FOUND:                         in a condition to promote maximum
In fiscal year (FY) 2010, the U.S. Postal   office efficiency. We also recommended
Service made substantial progress by        reinforcement of Postal Service policies
reducing 14.7 million carrier workhours     and procedures for supervising city
from city delivery operations from the      delivery operations and elimination of
previous year. Moreover, during the         inefficient practices.
same period, the Postal Service
maintained or improved delivery service.    WHAT MANAGEMENT SAID:
However, our benchmarking comparison        Management agreed with the finding,
determined that 21 districts operated at    recommendations and opportunities to
a percent to standard above the national    capture workhour savings. However,
average (mean) of 104.37 for the period     they disagreed with the source system,
January 1, 2010, through December 31,       eFlash, used for calculating the
2010. In other words, these districts       workhour savings and savings amount
used more minutes per route than the        associated with recommendation.
average carrier route in the nation. If
Postal Service least productive districts   AUDITOR’S COMMENT:
were brought up to the average              The source system, eFlash, is widely
productivity level, they could save more    used, accurate, and representative of
than $88 million in 1 year.                 office performance.

WHAT THE OIG RECOMMENDED:                   Link to review the entire report.
The OIG recommends the vice
president, Delivery and Post Office
July 19, 2011

MEMORANDUM FOR:                      DEAN J. GRANHOLM
                                     VICE PRESIDENT, DELIVERY AND POST OFFICE
                                     OPERATIONS

                                     DAVID E. WILLIAMS, JR.
                                     VICE PRESIDENT, NETWORK OPERATIONS
                                     MANAGEMENT

                                           E-Signed by Robert Batta
                                         VERIFY authenticity with e-Sign




FROM:                                Robert J. Batta
                                     Deputy Assistant Inspector General
                                      for Mission Operations

SUBJECT:                             Management Advisory Report – National Assessment of City
                                     Delivery Efficiency 2011 – Office Performance
                                     (Report Number DR-MA-11-002)

This report presents the results of our nationwide city delivery office efficiency review
based on results and recommendations from prior U.S. Postal Service Office of
Inspector General (OIG) audits1 (Project Number 11XG021DR000).

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the U.S.
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, director, Delivery or
me at 703-248-2100.

Attachments



1
  The OIG has issued six district city delivery efficiency review audits over the past 2 years highlighting opportunities
for enhanced delivery efficiency and reduced workhour costs.
cc:   Patrick R. Donahoe
      Megan J. Brennan
      Elizabeth A. Schaefer
      Philip F. Knoll
      Drew T. Aliperto
      Sylvester Black
      Jo Ann Feindt
      David C. Fields
      Steven J. Forte
      Jordan M. Small
      Linda J. Welch
      Corporate Audit and Response Management
                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Operating Efficiency ........................................................................................................ 1

Mail Arrival and Condition ............................................................................................... 3

Setting of Office Expectations ......................................................................................... 5

Afternoon Office Time Management................................................................................ 5

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 8

 Background ................................................................................................................... 8

 Objectives, Scope, and Methodology ............................................................................ 9

 Prior Audit Coverage ................................................................................................... 11

Appendix B: Monetary Impacts ..................................................................................... 14

Appendix C: Postal Service Districts in Relation to Percent to Standard Based on
 National Average ........................................................................................................ 15

Appendix D. Management’s Comments ........................................................................ 18
National Assessment of City Delivery                                                                      FR-MA-11-002
 Efficiency 2011 – Office Performance




Introduction

This report presents the results of our nationwide city delivery office efficiency review
based on results and recommendations from prior U.S. Postal Service Office of
Inspector General (OIG) audits2 (Project Number 11XG021DR000). Our objectives were
to assess the overall efficiency of city delivery office operations and identify
opportunities to reduce operating costs. This self-initiated audit addresses operational
risk and is the seventh in a series conducted by the OIG. See Appendix A for additional
information about this audit.

During fiscal years (FYs) 2010 and 2011, we reported on city delivery office efficiency in
six district audits and recommended the U.S. Postal Service reduce almost 1.2 million
workhours. The goal of the audits was to identify actions city delivery units needed to
take to increase efficiency and reduce costs using the national average percent to
standard measure as a baseline.3 We took a similar approach in this report and plan to
conduct this type of analysis annually.

Conclusion

In FY 2010, the Postal Service made substantial progress by reducing 14.7 million
carrier workhours from city delivery operations from the previous year. However, our
benchmarking comparison determined that 21 districts4 operated at a percent to
standard above the national average of 104.37 for the period January 1 through
December 31, 2010. In other words, these districts used more minutes per route than
the average carrier route in the nation. If Postal Service least productive districts were
brought up to the average productivity level, they could save over $88 million in 1 year.
See Appendix B for details.

Operating Efficiency

Further opportunities exist for the Postal Service to increase operating efficiency and
reduce 2,002,690 city delivery workhours in the 21 districts operating above the national
average5 percent to standard measure of 104.37. We found 21 districts could save
between 4 and 14 minutes 6 per day on each carrier route if they operated at the national
average percent to standard level. (See Table 1).

2
  The OIG has issued six district city delivery efficiency review audits over the past 2 years highlighting opportunities
for enhanced delivery efficiency and reduced workhour costs.
3
  A measure of carrier office workhour performance in relation to mail volume and delivery points. A figure of
100 percent indicates that office performance is at the stated performance goal. A figure greater than 100 percent
indicates performance is less than the desired standard.
4
  There were a total of 27 districts that operated above the national average percent to standard. The OIG reviewed
six of these districts in separate audits.
5
  Period from January 1 through December 31, 2010.
6
  Estimated workhours above the national average percent to standard multiplied by 60 minutes per hour divided by
the number of routes in each district divided by 302 annual delivery days per year equals the approximate number of
minutes per route per day that could be saved.
                                                              1
                 This report has not yet been reviewed for release under FOIA or the Privacy
                 Act. Distribution should be limited to those within the Postal Service with a
                 need to know.
     National Assessment of City Delivery                                                               DR-MA-11-002
      Efficiency 2011 – Office Performance



                                  Table 1: Estimated Workhours Savings
                                    Number       Percent to Standard         Estimated Annual        Estimated Minutes
                                      of        Compared to National             Workhour            Saved Per Day Per
              Districts             Routes        Average of 104.37               Savings                 Route
                 7
San Francisco                         2,285               115.83                    160,066                    14
Capital                               1,969               110.90                    129,504                    13

Alaska                                 291                112.22                    17,802                     12
Southeast Michigan                    1,898               113.11                    110,865                    12
Mid-America                           1,824               108.28                    100,827                    11
Richmond                              1,572               110.45                    85,933                     11
Sierra Coastal                        2,901               111.42                    136,550                     9
Triboro                               3,053               109.79                    143,107                     9
Sacramento                            2,295               111.71                    104,784                     9
Baltimore                             1,793               109.26                    78,060                      9
San Diego                             3,178               110.76                    132,081                     8
Long Island                           2,294               108.50                    86,265                      8
Connecticut Valley                    3,130               107.50                    117,602                     8
Seattle                               2,914               109.50                    115,822                     8
Santa Ana                             4,443               109.91                    163,495                     7
Colorado/Wyoming                      2,693               111.04                    93,277                      7
Albuquerque                            709                106.95                    23,625                      7
Louisiana                             1,800               107.51                    59,086                      7
Caribbean                              726                104.95                    23,347                      6
Greater Boston                        3,475               104.64                    84,099                      5
Detroit                               1,964               104.96                    36,493                      4
Totals                               47,207                                        2,002,690


     Although numerous factors were involved, our reviews of randomly selected units in six
     districts determined that unit management did not always provide sufficient guidance
     and adherence to Postal Service standard operating procedures (SOPs). Specifically,
     supervisors did not:

         Sufficiently work jointly with processing facilities to:




     7
       The workhour savings for the San Francisco District exclude the Napoleon Street Station, which was previously
     reviewed by OIG -City Delivery Efficiency Review San Francisco Napoleon Street Station (Report Number DR-AR-
     10-002, dated December 18, 2009).




                                                             2
National Assessment of City Delivery                                                                        DR-MA-11-002
 Efficiency 2011 – Office Performance


    o Ensure delivery units received the proper mail mix from processing facilities
      based on an effective integrated operating plan (IOP).8 This helps carriers to
      spend less time waiting for mail and accountable items.

    o Ensure the condition of DPS mail was sufficient so that clerks and carriers did not
      have to re-handle mail transport containers to identify and retrieve delivery point
      sequence (DPS) 9 mail.

   Always discuss morning and afternoon office expectations with carriers.
   Ensure afternoon (p.m.) office time was managed more effectively, and carriers
    timely and correctly clocked in to the proper operation.

Title 39 U.S.C. § 101, Part 1, Chapter 1, states that the Postal Service “. . .shall provide
prompt, reliable, and efficient services to patrons in all areas. . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states, “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal and Accountability Enhancement Act, P.L. 109-435, Title II, dated
December 20, 2006, states “… the need for the Postal Service to increase its efficiency
and reduce its costs, including infrastructure costs, to help maintain high quality,
affordable postal services.”

Our six previous district audits identified areas of improvement for increased efficiency.
Through our benchmark analysis of performance data, observations, and discussions
with various delivery unit and district personnel nationally, we determined these specific
areas of improvement are contributing to the districts’ operating inefficiencies.

Mail Arrival and Condition

Delivery unit and processing plant personnel need to work jointly to improve the arrival
time and condition of the mail to facilitate a more efficient morning operation. Our
reviews of individual districts identified that efficient mail arrival and condition was a key
factor affecting office performance. When mail arrives at a delivery unit later than
expected or not in the agreed upon mail mixture, carriers are delayed in the office. The
IOP 10 is designed to help stabilize mail flows and is critical in establishing appropriate
staffing and reporting times to ensure carriers are not delayed.




8
  A contract that covers mail arrival from the plant and identifies the product of mail agreed for each individual trip.
The primary purpose is to stabilize mail flow (for example, arrival time of DPS, auto letters, and auto flats) based on
other requirements for mail arrival such as the mail mix/unit distribution percentage.
9
  A process for sorting bar-coded letter mail at the processing plants and delivery units into the carrier’s line-of-travel.
Mail is taken directly to the street, with no casing time in the office.
10
   A contract that covers mail arrival from the plant and identifies the product of mail agreed for each individual trip.
The primary purpose is to stabilize mail flow (for example, arrival time of DPS, auto letters, and auto flats) based on
other requirements for mail arrival such as the mail mix/unit distribution percentage.




                                                             3
National Assessment of City Delivery                                                                         DR-MA-11-002
 Efficiency 2011 – Office Performance


Postal Service policy11 also states that accountable items must be available for carriers
in a timely manner so as not to delay them. Late arriving mail can also impact a clerk’s
availability to timely sort and finalize ‘hot case’ mail. 12 When this happens, carriers often
have to wait for mail and or accountable items before departing to the street, because
clerks are still sorting letter mail or parcels, see Illustration 1.

          Illustration 1: Clerk Sorting Letter Mail Not Arriving in Proper Mixture




                             Source: OIG

In addition, ensuring the condition of DPS letters processed by the plants and having
them arrive in mail transport containers that are staged for easy retrieval helps prevent
carriers from being delayed unnecessarily. When clerks and sometime carriers have to
unload and sort through transport containers this unnecessarily delays carriers and
decreases office efficiency. Postal Service policy13 states mail processing plants should
stage DPS letters for transport in shelved or modified containers so that individual trays
do not have to be re-handled at the delivery unit, see Illustration 2.




11
   Field Operations Standardization, Morning (AM) Standard Operating Procedures (AMSOP) II Guidebook, 2007,
Section 3.1.
12                                                                                                            ®
   Hot case mail is a special distribution case in a delivery unit for last-minute sorting of First-Class Mail . The letter
carrier collects this mail before leaving the office for street duties.
13
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, 2007, Section 2-6.




                                                              4
National Assessment of City Delivery                                          DR-MA-11-002
 Efficiency 2011 – Office Performance




    Illustration 2: DPS Letters in Unshelved Containers and Not Staged by Route




                                Source: OIG


Setting of Office Expectations

Supervisors can improve their setting of expectations for morning and office operations
and reviewing the previous day performance with carriers regarding issues that could
save time or otherwise make routes more efficient.

   Supervisors are required to discuss with each carriers their expectations for the day
    based on workload and volume recorded on the DOIS Daily Workload Status
    Report.

   In addition, supervisors must not only print and review the DOIS Route/Carrier Daily
    Performance/Analysis Report but also must discuss this report with carriers. AMSOP
    II instructions state that if a carrier does not meet performance standards, a
    supervisor must investigate and discuss deficiencies with the carrier.

Afternoon Office Time Management

Supervisors have an opportunity to capture greater efficiency by providing more
appropriate oversight to carriers in the afternoon. Carriers are generally allotted
5 minutes to perform afternoon office duties. Observations and reviews of DOIS
Route/Carrier Daily Performance/Analysis Report show two opportunities for office
efficiency:

   Carriers are clocking into afternoon office duties and spending sometimes up to
    30 minutes without an explanation for the extra time.




                                              5
National Assessment of City Delivery                                              DR-MA-11-002
 Efficiency 2011 – Office Performance


   Carriers are not clocking directly to ‘office time’ upon returning to the unit in the
    afternoon, resulting in much of this additional ‘office time’ being included in street
    operations.

By emphasizing and reinforcing city delivery SOPs, the Postal Service could further
improve operational efficiency and save more than 2 million workhours annually. This
would allow the Postal Service to achieve at least the average productivity level in the
network, and avoid costs of more than $88 million over 1 year.

Recommendations

We recommend the vice president, Delivery and Post Office Operations work jointly with
the vice president, Network Operations Management to:

1. Reduce 2,002,690 workhours during fiscal year 2012 with an associated economic
   impact of $88,192,128.

2. Promote office efficiency by ensuring that processing facility managers and delivery
   managers coordinate, review, and update all integrated operating plans to ensure
   mail arrives timely and in the condition necessary to maximize office efficiency.

3. Reinforce Postal Service Headquarters and district policies and procedures for
   supervising city delivery office operations and eliminate inefficient practices as
   appropriate.

Management’s Comments

Management agreed with the findings and two of three recommendations. In response
to recommendation 1, management agreed savings could be achieved but did not agree
with our estimates. The basis for this disagreement lies with the data source used for
calculating the workhour savings.

Management agreed with recommendation 2, and stated that Delivery and Post Office
Operations will coordinate with Network Operations to update the integrated operations
plans SOP and template with a completion date of September 30, 2011. In addition,
management will continue to review and monitor the implementation and adherence to
the IOPs within delivery units through AM-SOP reviews and randomly selected visits by
district offices.

Management agreed with recommendation 3, and stated ongoing needs exist for the
field to remain vigilant in effective day-to-day management of delivery units.
Management plans to develop a series of foundation skills training to delivery units
through webinars with a scheduled completion date by the end of FY 2012.

See Appendix D for management’s comments, in their entirety.




                                              6
National Assessment of City Delivery                                             DR-MA-11-002
 Efficiency 2011 – Office Performance


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the overall findings and
recommendations. However, we do not agree with management’s comments regarding
the source system and the reduced savings amount associated with recommendation 1.
The OIG believes the eFlash system is a more valid data source for the following
reasons:

   eFlash system is the weekly reporting system used throughout the organization by
    finance and operations and is the primary source for the collection of standardized
    field non-payroll data.

   eFlash appears to be more accurate based on our evaluation of Enterprise Data
    Warehouse (EDW). Our review found the percent to standard national average in
    EDW to be a number lower than each of the individual area averages, which is
    statistically impossible and points to integrity issues with the data and calculations.

   Review of the EDW percent to standard numbers for the audit period showed
    16 districts with a percent to standard of less than 100 percent and yet also showed
    a positive office hour variance, which is statistically impossible.

   Our observations of the actual office performance of more than 130 delivery units in
    six districts were more reflective of the eFlash percent to standard than the
    comparable EDW value for those units.




                                              7
National Assessment of City Delivery                                                                       DR-MA-11-002
 Efficiency 2011 – Office Performance



                                   Appendix A: Additional Information

Background

The Postal Service is delivering fewer pieces of mail to a growing number of addresses
as new households and businesses are added to the delivery network each year.
Accommodating this new growth, while facing financial loss from declining mail volume
and rising costs, demands that the Postal Service achieve unprecedented levels of
efficiency.

The Postal Service had been working numerous years on establishing policies and
procedures to more efficiently manage delivery operations. On September 30, 2005, the
vice president, Delivery and Retail, issued a letter stating that all delivery and retail units
would officially implement the AM SOP beginning in FY 2006. The SOP consists of
procedures to manage city delivery functions and standardize daily city carrier functions
to align actual workhours to base workhours. Postal Service officials were not only to
implement the SOP but also establish a review process to validate that the programs
are operable.

The follow-up to AM SOP, AM SOP II, is an important continuation of monitoring city
delivery operations. AM SOP II strives to maintain delivery performance at or above
targeted performance factors in daily customer service and delivery operations. The
achievement for this status requires a high level of commitment and cooperation
between mail processing, in-plant support, transportation, district operations program
support, and local management.

In December 2010, the Postal Service released a new guide to help districts manage
delivery optimization efforts. The Delivery Unit Optimization (DUO) Guidelines creates
Postal Service standards for the uniform implementation of policies and procedures.
Decisions on delivery optimization are made at the district level. A major goal of the
DUO guide is to make sure elements of the decision-making process are uniform
nationwide. The intent is that following the guide will result in improved operational
efficiencies and savings opportunities by including a blueprint designed to create
opportunities for efficiencies through consolidations.

The 74 districts were placed in three groups based on their percent to standard relative
to the national average of 104.37 percent, which was the mean. Districts operating at or
below 100 percent to standard are considered to be at optimum efficiency, while
districts operating above the national average (mean) are considered not operating
efficiently. The third group, those operating below the mean, but above 100 percent, are
considered efficient but not operating at the optimum efficiency level. This report
summarizes 2114 of the 27 districts that operated above the mean (national average).


14
  OIG issued individual district audit reports on six of these 27 districts. These six districts had the highest percent to
standard in this group.




                                                             8
National Assessment of City Delivery                                           DR-MA-11-002
 Efficiency 2011 – Office Performance


Chart 1 shows the number of districts operating in each group. See Appendix C for a list
of the 74 districts and their percent to standard in relation to the national average.

               Chart 1: Districts Grouped Based on Optimum Office Percent to
                          Standard Relative to the National Average




Source: OIG

Objectives, Scope, and Methodology

Our objectives were to assess the overall efficiency of city delivery office operations and
identify opportunities to reduce operating costs. This is a cooperative effort with the
Postal Service and addresses operational risk. To accomplish our objectives, we must:

   Ranked the 74 Postal Service districts from highest to lowest in terms of percent to
    standard from January 1, 2010, through December 31, 2010. We used the eFlash
    national percent to standard measurement of 104.37 for January 1, 2010, through
    December 31, 2010, as a baseline guide.

   Performed a benchmarking comparison of eFlash data and determined that 27 of the
    74 districts, operated at a percent to standard higher than the national average of
    104.37. This report addresses 21 of the districts; the other six were previously
    reviewed by the OIG.




                                             9
National Assessment of City Delivery                                                                   DR-MA-11-002
 Efficiency 2011 – Office Performance



    Reviewed the number of units, routes, and city delivery workhours used by the
     21 districts. We calculated the amount of workhours that could be saved if the
     districts operated more efficiently by achieving the national percent to standard
     average of 104.37 percent.

    Identified systemic issues and opportunities for efficiency resulting from prior reviews
     that could be applied nationwide and require Postal Service Headquarters actions.

To conduct this review, we relied on computer-processed data maintained by Postal
Service operational systems, primarily eFlash.15 We did not test the validity of controls
over these systems. However, we verified the accuracy of the data by confirming our
analysis and results with Postal Service managers and other data sources.

We conducted this review from February 2011 through July 2011 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our conclusions with management on May 4,
2011, and included their comments where appropriate.




15
   A weekly operating reporting management system that combines data from delivery, mail processing, employee
relations, labor relations, and finance. The information is extracted from various host systems and loaded into eFlash.




                                                          10
     National Assessment of City Delivery                                                                     DR-MA-11-002
      Efficiency 2011 – Office Performance


     Prior Audit Coverage

     The OIG identified seven audits related to our objectives that were issued over several
     years.

                                                   Final
                               Report             Report          Monetary
   Report Title                Number              Date            Impact                     Report Results
City Delivery               DR-AR-11-004          03/30/11        $65,362,706        The Chicago District has
Efficiency – Chicago                                                                 opportunities for enhanced delivery
District                                                                             efficiency and reduced workhour
                                                                                     costs. Our benchmarking
                                                                                     comparison determined the
                                                                                     Chicago District’s percent to
                                                                                     standard measurement was 120.04
                                                                                     or 14.9 percentage points above
                                                                                     the national average of 105.14
                                                                                              16
                                                                                     percent . In other words, the
                                                                                     Chicago District used
                                                                                     approximately 16 minutes more per
                                                                                     carrier route than the average
                                                                                     carrier route in the nation.
                                                                                     Management agreed to the
                                                                                     findings, recommendations and
                                                                                     monetary impact.
City Delivery               DR-AR-11-003          01/20/11        $32,171,718        The Northern Virginia District was
Efficiency – Northern                                                                not operating at peak efficiency and
Virginia District                                                                    could reduce city delivery operating
                                                                                     costs. Our benchmarking
                                                                                     comparison determined the
                                                                                     Northern Virginia District percent to
                                                                                     standard measurement was 123.24
                                                                                     or 17 percentage points above the
                                                                                     national average of 105.05 percent.
                                                                                     In other words, the district used
                                                                                     approximately 16 minutes more
                                                                                     than the average carrier route in
                                                                                     the nation. Management agreed to
                                                                                     the findings, recommendations,
                                                                                     and monetary impact.




     16
          Each prior audit comprised different time frames, and so the national average percent to standard varied.




                                                                 11
      National Assessment of City Delivery                                                   DR-MA-11-002
       Efficiency 2011 – Office Performance


City Delivery            DR-AR-11-002         01/18/11   $93,143,986   The New York District has
Efficiency – New                                                       opportunities for enhanced
York District                                                          efficiency and reduced workhours.
                                                                       Our benchmarking comparison
                                                                       determined the New York District’s
                                                                       percent to standard measurement
                                                                       was 127.05 or 21.1 percentage
                                                                       points above the national average
                                                                       of 105.95 percent. In other words,
                                                                       the district used approximately
                                                                       37 minutes more than the average
                                                                       carrier route in the nation.
                                                                       However, because of unique
                                                                       delivery issues specific to the New
                                                                       York District, we used 25 minutes
                                                                       per carrier route. Management
                                                                       agreed to the findings,
                                                                       recommendations, and monetary
                                                                       impact.
City Delivery            DR-AR-10-009         09/24/10   $27,374,309   The Atlanta District was not
Efficiency – Atlanta                                                   operating at peak efficiency and
District                                                               could reduce city delivery operating
                                                                       costs. Our benchmarking
                                                                       comparison determined the Atlanta
                                                                       District used approximately
                                                                       9 minutes more per day than the
                                                                       national average for each carrier
                                                                       route, compared to the standard for
                                                                       that route. The measurement for
                                                                       this factor, called percent to
                                                                       standard, was 111.18, about
                                                                       5 percentage points above the
                                                                       national average of 106.49 percent.
                                                                       Management agreed to findings,
                                                                       recommendations, and monetary
                                                                       impact.
City Delivery            DR-AR-10-007         08/26/10   $79,016,988   The Bay Valley District was not
Efficiency – Bay                                                       operating at peak efficiency and
Valley District                                                        could reduce city delivery operating
                                                                       costs. Our benchmarking
                                                                       comparison determined the Bay
                                                                       Valley District used approximately
                                                                       13 minutes more per day than the
                                                                       national average for each carrier
                                                                       route, compared to the standard for
                                                                       that route. The measurement for
                                                                       this, called percent to standard,
                                                                       was 115.93, 9 percentage points
                                                                       above the national average of
                                                                       106.49. Management agreed to
                                                                       findings, recommendations, and
                                                                       monetary impact.




                                                         12
     National Assessment of City Delivery                                                   DR-MA-11-002
      Efficiency 2011 – Office Performance


City Delivery           DR-AR-10-006         07/01/10   $105,056,064   The Los Angeles District was not
Efficiency – Los                                                       operating at peak efficiency and
Angeles District                                                       could save workhours and reduce
                                                                       city delivery operating costs.
                                                                       Management agreed to findings,
                                                                       recommendations, and monetary
                                                                       impact. Our benchmarking
                                                                       comparison determined the Los
                                                                       Angeles District used
                                                                       approximately 26 minutes more per
                                                                       day than the national average for
                                                                       each carrier route as compared to
                                                                       the standard for that route. The
                                                                       measurement for this, called
                                                                       percent to standard was 124.17 -
                                                                       about 17 percentage points above
                                                                       the national average of 107.19
                                                                       percent.
City Delivery           DR-AR-10-002         12/18/09   $21,308,433    The audit concluded the Napoleon
Efficiency Review                                                      Street Station was not operating at
– San Francisco                                                        peak efficiency and management
Napoleon Street                                                        could reduce city delivery costs.
Station                                                                Our benchmarking comparison of
                                                                       five similar delivery units showed
                                                                       this station used 54,975 hours
                                                                       more than necessary. We also
                                                                       found management did not adjust
                                                                       workhours to the changes in
                                                                       workload. Management agreed
                                                                       with our findings and
                                                                       recommendations to correct the
                                                                       issues identified.




                                                        13
National Assessment of City Delivery                                                                 DR-MA-11-002
 Efficiency 2011 – Office Performance


                                    Appendix B: Monetary Impacts

     Finding                                    Impact Category                                      Amount
Operating Efficiency                    Calculation of Questioned Costs17                          $88,192,128

We estimated the monetary impact of $88,192,128 in questioned costs by reducing
2,002,690 workhours in 21 districts. This amount comes from a reduction of delivery
office workhours over 1 year using the city carrier level 2 labor rate for FY 2010,
see Table 2.

                         Table 2: Districts Estimated Monetary Savings
                                                                      Estimated
                                                     Total           Annual City              Estimated
                                                    Number             Delivery                Annual
                                      Delivery         of            Workhours                Monetary
              District                 Units        Routes             Saved18                 Savings
     San Francisco                       58          2,285             160,066                  $7,271,327
     Santa Ana                          109          4,443             163,495                    7,178,031
     Triboro                            102          3,053             143,107                    6,284,433
     Sierra Coastal                     110          2,901             136,550                    6,071,555
     San Diego                          106          3,178             132,081                    5,840,729
     Capital                             63          1,969             129,504                    5,797,047
     Seattle                            132          2,914             115,822                    5,037,094
     Southeast Michigan                  61          1,898             110,865                    4,971,611
     Sacramento                         113          2,295             104,784                    4,607,049
     Mid-America                        159          1,824             100,827                    4,523,782
     Connecticut Valley                 136          3,130             117,602                    5,134,822
     Colorado/Wyoming                   132          2,693              93,277                    4,031,111
     Long Island                        112          2,294              86,265                    3,658,692
     Richmond                            93          1,572              85,933                    3,744,992
     Greater Boston                     125          3,475              84,099                    3,687,730
     Baltimore                           80          1,793              78,060                    3,480,818
     Louisiana                          128          1,800              59,086                    2,472,166
     Detroit                             73          1,964              36,493                    1,577,733
     Albuquerque                         46           709               23,625                    1,033,892
     Caribbean                           90           726               23,347                    1,023,039
     Alaska                              23           291               17,802                      764,475
                        Totals         2,051        47,207            2,002,690                $88,192,128




17
   A questioned cost is categorized as unnecessary, unreasonable, unsupported or an alleged violation of law,
regulation or contract.
18
   The amount of estimated workhours districts can save if they improve their percent to standard down to the
national average of 104.37.




                                                         14
National Assessment of City Delivery                                               DR-MA-11-002
 Efficiency 2011 – Office Performance



Appendix C: Postal Service Districts in Relation to Percent to Standard Based on
                               National Average

                             Districts Not Operating at Optimum Efficiency
                             (Exceed National Average of 104.37 Percent to
                             Standard)

                 Number                    District          Percent to Standard
                     1       New York                              127.64
                     2       Northern Virginia                     124.21
                     3       Los Angeles                           119.58
                     4       Chicago                               119.17
                     5       San Francisco                         115.83
                     6       Southeast Michigan                    113.11
                     7       Alaska                                112.22
                     8       Sacramento                            111.71
                     9       Sierra Coastal                        111.42
                    10       Colorado/Wyoming                      111.04
                    11       Capital                               110.90
                    12       San Diego                             110.76
                    13       Richmond                              110.45
                    14       Santa Ana                             109.91
                    15       Triboro                               109.79
                    16       Seattle                               109.50
                    17       Baltimore                             109.26
                    18       Atlanta                               109.02
                    19       Long Island                           108.50
                    20       Mid-America                           108.28
                    21       Louisiana                             107.51
                    22       Connecticut Valley                    107.50
                    23       Albuquerque                           106.95
                    24       Bay-Valley                            105.05
                    25       Detroit                               104.96
                    26       Caribbean                             104.95
                    27       Greater Boston                        104.64




                                                      15
National Assessment of City Delivery                                               DR-MA-11-002
 Efficiency 2011 – Office Performance




                           Districts Operating Efficiently but not Optimum
                           (Below National Average of 104.37 Percent but
                           Exceed Goal of Percent)

                Number                      District         Percent to Standard
                   1       Hawkeye                                 104.01
                   2       Greater Michigan                        103.95
                   3       Nevada-Sierra                           103.91
                   4       Northern Illinois                       103.72
                   5       Arizona                                 103.71
                   6       Portland                                103.43
                   7       Salt Lake City                          103.18
                   8       Houston                                 103.17
                   9       Greater South Carolina                  102.78
                   10      Lakeland                                102.57
                   11      Northland                               101.91
                   12      North Florida                           101.84
                   13      Tennessee                               101.77
                   14      Gateway                                 100.96
                   15      Northern New England                    100.67
                   16      South Florida                           100.56
                   17      Columbus                                100.50
                   18      Mid-Carolinas                           100.22
                   19      Northern New Jersey                     100.16
                   20      Westchester                             100.11




                                                       16
National Assessment of City Delivery                                          DR-MA-11-002
 Efficiency 2011 – Office Performance




                     Districts Operating at Optimum Efficiency (At or below
                     100 Percent to Standard)

          Number                      District         Percent to Standard
              1      Honolulu                                 99.97
              2      Dallas                                   99.91
              3      Greensboro                               99.61
              4      Alabama                                  99.33
              5      Dakotas                                  98.97
              6      Central Illinois                         98.94
              7      Appalachian                              98.53
              8      Northern Ohio                            98.41
              9      South Georgia                            98.39
             10      Fort Worth                               98.31
             11      Central Plains                           98.24
             12      Oklahoma                                 98.10
             13      Suncoast                                 98.07
             14      Rio Grande                               97.92
             15      Central Pennsylvania                     97.90
             16      Cincinnati                               97.61
             17      Kentuckiana                              97.24
             18      Philadelphia Metropolitan                96.96
             19      Big Sky                                  96.22
             20      Southeast New England                    95.45
             21      Greater Indiana                          95.22
             22      South Jersey                             94.35
             23      Western Pennsylvania                     94.14
             24      Arkansas                                 93.43
             25      Western New York                         93.36
             26      Albany                                   93.10
             27      Mississippi                              90.57




                                                 17
National Assessment of City Delivery                           DR-MA-11-002
 Efficiency 2011 – Office Performance


                           Appendix D. Management’s Comments




                                          18
National Assessment of City Delivery         DR-MA-11-002
 Efficiency 2011 – Office Performance




                                        19
National Assessment of City Delivery         DR-MA-11-002
 Efficiency 2011 – Office Performance




                                        20
